AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20X
DUANE JOSEPH JOHNSON,
Petitioner,
v.
E.D. WILSON, WARDEN
Respondent.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Julian Hadiz, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 26th day of October 2020,1 served the within Petition for Writ of
Certiorari, Motion for Leave to File Sealed Supplemental Appendix and the Sealed
Supplemental Appendix in the above-captioned matter upon:
Jeffrey B. Wall, Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@,usdoi .gov
by sending one copy of same, addressed to each individual respectively, and
enclosed in a properly addressed wrapper, through the United States Postal Service, by
Express Mail, postage prepaid. An electronic version was also served by email to each
individual.
That on the same date as above, I sent to this Court eleven copies and one un­
bound copy of the within through the United States Postal Service by Express Mail,
postage prepaid.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 26th day of October 2020.

Julian Hadiz
Sworn to and subscribed before me
26th day of October 2020.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

